No. _______

In The

Supreme Court of the United States
HOWARD B. BLOOMGARDEN,
Petitioner,

v.

NATIONAL ARCHIVES AND RECORDS
ADMINISTRATION,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the District of Columbia

APPENDIX

Torrence E.S. Lewis
Counsel of Record
LAW OFFICE OF TORRENCE E.S. LEWIS
31 Churchill Road
Pittsburgh, PA 15235
(412) 871-5931
torrencelewis@federalappeals.com
Counsel for Petitioner
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond, Virginia 23219 (800) 847-0477

TABLE OF CONTENTS TO APPENDIX
Bloomgarden v. Nat’l Archives & Records Admin., No. 18-5347, 798 Fed. App’x 674 (D.C. Cir.
March 13, 2020)………………………………… A1
Bloomgarden v. Nat’l Archives & Records Admin., No. 1:17-cv-02675-CKK, 344 F. Supp. 3d 66
(D.D.C. Oct. 26, 2018)………………………… A11

A1
USCA Case #18-5347
Document
#1833394 Filed: 03/13/2020
United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT
______
September Term, 2019

No. 18-5347

Filed On: March 13, 2020
HOWARD BLOOMGARDEN,
APPELLANT,
v.
NATIONAL ARCHIVES AND RECORDS ADMINISTRATION,
APPELLEE
______
Appeal from the United States District Court
For the District of Columbia
(No. 1:17-cv-02675)
______

A2
Before: TATEL and PILLARD, Circuit Judges,
and EDWARDS, Senior Circuit Judge.
JUDGMENT
This case was considered on the record from
the United States District Court for the District
of Columbia and on the briefs and oral arguments
of the parties. The court has afforded the issues
full consideration and determined they do not
warrant a published opinion. See D.C. CIR. R.
36(d). For the reasons stated below, it is hereby
ORDERED AND ADJUDGED that the judgment of the district court be AFFIRMED IN
PART and REVERSED IN PART.
In this sequel to Bloomgarden v. U.S. Dep’t of
Justice (DOJ), 874 F.3d 757 (D.C. Cir. 2017)
(Bloomgarden I), Howard Bloomgarden, who is
serving a sentence of life imprisonment without
parole in California, see id. at 758, seeks further
details under the Freedom of Information Act
(FOIA), 5 U.S.C. § 552, about the for-cause termination of the Assistant U.S. Attorney (AUSA) who
initially participated in the federal-state investigation that led to Bloomgarden’s conviction. In
Bloomgarden I, we affirmed DOJ’s withholding

A3
under FOIA Exemption 6 of a “proposed discipline
letter” regarding the AUSA. 874 F.3d at 761 (applying 5 U.S.C. § 552(b)(6)). Bloomgarden now
seeks from the National Archives and Records
Administration (National Archives, or the Archives) two later letters: (1) the final decision letter to the AUSA from DOJ on the “proposed discipline letter” at issue in Bloomgarden I, and (2)
a letter from the AUSA following receipt of the final decision letter. We call the first letter the Corrigan Letter—referring to the letter’s author,
Dennis Corrigan, then the Executive Assistant
and Counsel to the Deputy Attorney General—
and the second letter the AUSA Response.
In response to Bloomgarden’s FOIA request, a
then-new archivist identified the Corrigan Letter
and the AUSA Response. The archivist then informed Bloomgarden’s counsel that copies of
those letters would be sent to him. Several days
later, the archivist’s supervisor determined that
the Archives would withhold both letters under
FOIA Exemption 6. “Exemption 6 of FOIA allows
the government to withhold ‘personnel . . . files
the disclosure of which would constitute a clearly
unwarranted invasion of personal privacy.’” Id. at
759 (alterations in original) (quoting 5 U.S.C. §
552(b)(6)).

A4
After exhausting his FOIA claim within the
National Archives, Bloomgarden sued under 5
U.S.C. § 552(a)(4)(B) to challenge application of
Exemption 6, and the parties cross-moved for
summary judgment. See Bloomgarden v. Nat’l Archives, 344 F. Supp. 3d 66, 71 (D.D.C. 2018). After
reviewing the Corrigan Letter and the AUSA Response in camera, see id. at 73, the district court
granted summary judgment to the Archives and
denied Bloomgarden’s cross-motion, concluding
that the AUSA’s “strong privacy interest in the
information contained in his termination letters”
outweighs the “relatively low” public interest in
their disclosure, id. at 76.
We review de novo the district court’s order on
summary judgment, including its application of
FOIA Exemption 6 to the Corrigan Letter and
AUSA Response. See Bloomgarden I, 874 F.3d at
759. The government bears the burden to establish that any material it withholds under Exemption 6 satisfies the statutory requirements for
withholding. See Am. Immigration Lawyers Ass’n
v. Exec. Office for Immigration Review, 830 F.3d
667, 673 (D.C. Cir. 2016).
Bloomgarden does not appear to contest that
the Corrigan Letter and AUSA Response are

A5
“‘personnel’ files that satisfy the threshold requirement of Exemption 6,” Bloomgarden, 344 F.
Supp. 3d at 74 (quoting 5 U.S.C. § 552(b)(6)), so
we need only decide whether disclosure of those
letters “would rise to the level of a ‘clearly unwarranted invasion of personal privacy,’” Am. Immigration, 830 F.3d at 673 (quoting 5 U.S.C. §
552(b)(6)). To do so, “we follow a[] two-step process.” Id. First, we must determine whether disclosure “‘would compromise a substantial, as opposed to de minimis, privacy interest,’ because ‘if
no significant privacy interest is implicated’” and
no other exemption is at issue, “FOIA demands
disclosure.” Multi Ag Media LLC v. USDA, 515
F.3d 1224, 1229 (D.C. Cir. 2008) (alteration omitted) (quoting Nat’l Ass’n of Retired Fed. Emps. v.
Horner, 879 F.2d 873, 874 (D.C. Cir. 1989)). Second, if we determine that a “substantial privacy
interest” exists, we must further inquire
“whether the public interest in disclosure outweighs the individual privacy concerns” so as to
justify disclosure. Id. at 1230 (quoting Nat’l Ass’n
of Home Builders v. Norton, 309 F.3d 26, 35 (D.C.
Cir. 2002)).
Bloomgarden asks us to proceed straight to
weighing the AUSA’s privacy interest in the
grounds for DOJ’s final decision against the public interest favoring disclosure, see Appellant’s Br.

A6
18-19, thereby implicitly acknowledging that the
AUSA has a substantial interest in nondisclosure
of the Corrigan Letter, see Appellee’s Br. 18. Insofar as the AUSA Response simply asks for the
AUSA’s own records and personal property,
Bloomgarden asserts that there cannot be anything sufficiently “embarrassing” to give rise to a
privacy interest protected under Exemption 6.
Appellant’s Br. 17. The Archives contends only
that the AUSA Response should remain private
because it “discusses the grounds for the former
AUSA’s removal.” Appellee’s Br. 23. We reviewed
both letters in camera, as did the district court,
and we see no such discussion in the AUSA Response. Because the Archives offers no viable reason why the AUSA (or anyone else) has a substantial privacy interest in the AUSA Response,
“FOIA demands disclosure” regardless whether
the public has any identified interest in the letter’s contents. Multi Ag Media, 515 F.3d at 1229
(quoting Retired Fed. Emps., 879 F.2d at 874).
Turning to the Corrigan Letter and the balancing of public and private interests, most of the factors that justified withholding the proposed discipline letter in Bloomgarden I also apply to the final-decision letter. The privacy interest is still
significant: The AUSA, who left DOJ decades ago,
continues work as “a practicing lawyer who would

A7
undoubtedly be quite embarrassed by disclosure”
of detailed recitations of “garden-variety incompetence and insubordination” from “many years
ago.” Bloomgarden I, 874 F.3d at 761; see also Am.
Immigration, 830 F.3d at 675. And any countervailing public interest remains low: The Corrigan
Letter “is over twenty years old,” addresses a junior, line-level prosecutor, “does not necessarily reveal anything of present personnel policies, and
as a piece of history . . . is hardly momentous.”
Bloomgarden I, 874 F.3d at 760; see also Kimberlin v. DOJ, 139 F.3d 944, 949 (D.C. Cir. 1998).
And, while Bloomgarden is correct that the “presumption in favor of disclosure” under Exemption
6 is particularly “strong,” Bloomgarden I, 874
F.3d at 760 (quoting Wash. Post Co. v. HHS, 690
F.2d 252, 261 (D.C. Cir. 1982)), and even assuming that “Justice Department prosecutors are particularly powerful government lawyers” in whose
conduct the public may have considerable interest, id., we weighed those same factors in Bloomgarden I, and in the context of this appeal they do
not change the result. Like the various courts
that have reviewed materials related to the termination of this AUSA, see id.; Bloomgarden, 344
F. Supp. 3d at 75 (Kollar-Kotelly, J.); Bloomgarden v. DOJ, Civil Action No. 15-0298, 2016

A8
WL 845299, at *3-4 (D.D.C. Mar. 2, 2016) (Huvelle, J.); People v. Bloomgarden, No. B276634,
2019 WL 4950243, at *16-17 (Cal. Ct. App. Oct. 8,
2019), we conclude from our own in camera review that the Corrigan Letter’s findings do not
identify any prosecutorial misconduct affecting
the merits of any case or otherwise threatening
the integrity of the prosecutorial function, but are
limited to instances of incompetence and insubordination. Cf. Bartko v. DOJ, 898 F.3d 51, 69-70
(D.C. Cir. 2018).
To be sure, our privacy analysis in Bloomgarden I emphasized that the proposed discipline
letter “contains mere allegations,” 874 F.3d at
761, whereas the Corrigan Letter followed a completed investigation, which included an opportunity for the AUSA to present rebuttal, and reflects DOJ’s final decision. That factual distinction makes the Corrigan Letter a closer case for
withholding under Exemption 6. But, given the
other factors we considered, that difference does
not, in our judgment, overcome the AUSA’s continued “privacy interest . . . in avoiding disclosure
of the details of the investigation” or “of his misconduct.” Kimberlin, 139 F.3d at 944. Nor does
the fact that the AUSA “continues to tout” his
prosecutorial experience by co-signing public let-

A9
ters with dozens of other former AUSAs, Appellant’s Br. 19 n.5; see also Bloomgarden 28(j) Letter (Feb. 24, 2020), materially change the publicinterest analysis. Specifically, the public letters
signed by lists of former prosecutors neither create a public misimpression that disclosure of the
Corrigan Letter might rectify nor meaningfully
enhance the public interest in the AUSA’s personnel record.
In addition to challenging the Archives’ publicprivate balancing, Bloomgarden argues that the
then-new archivist’s initial response anticipating
disclosure “creates a genuine issue of fact precluding summary judgment.” Appellant’s Br. 20.
By “fail[ing] to raise” that argument in any discernible way in the district court, however,
Bloomgarden “has forfeited” it on appeal.
Mayorga v. Merdon, 928 F.3d 84, 93 n.3 (D.C. Cir.
2019). Even were the argument preserved, we do
not think the then-new archivist’s initial response, which her supervisor promptly corrected,
bears on any fact material to the Exemption 6
analysis.
In sum, we affirm the judgment of the district
court as to the Corrigan Letter but reverse as to
the AUSA Response. We remand with instructions that the AUSA Response be released in full.

A10
Pursuant to D.C. Circuit Rule 36, this disposition will not be published. The Clerk is directed
to withhold issuance of the mandate herein until
seven days after resolution of any timely petition
for rehearing or petition for rehearing en banc.
See FED. R. APP. P. 41(b); D.C. CIR. R. 41(a)(1).
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Daniel J. Reidy
Deputy Clerk

A11
Case 1:17-cv-02675-CKK
Filed 10/26/18

Document 24

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
HOWARD BLOOMGARDEN,
Plaintiff
v.
NATIONAL ARCHIVES AND RECORDS ADMINISTRATION,
Defendant

Civil Action No. 172675 (CKK)

Memorandum Opinion
(October 26, 2018)
This lawsuit arises from a Freedom of Information Act (“FOIA”) request that Plaintiff
Howard Bloomgarden made to Defendant National Archives and Records Administration
(“NARA”). Plaintiff requested documents related
to the 1995 termination of an Assistant United
States Attorney (“AUSA”). In response to Plaintiff’s FOIA request, Defendant identified three

A12
letters. Defendant eventually provided Plaintiff
with one of the responsive letters but withheld
the two remaining responsive letters, claiming
that they fell under FOIA’s Exemption 6 which
protects “personnel and medical files and similar
files the disclosure of which would constitute a
clearly unwarranted invasion of personal privacy.” 5 U.S.C. § 552(b)(6). Plaintiff filed this suit,
arguing that the two responsive letters are not exempt from FOIA. The parties have filed crossmotions for Summary Judgment on the issue of
whether the two letters fall under Exemption 6 to
FOIA.
Upon consideration of the pleadings, 1 the
relevant legal authorities, and the record as it

The Court’s consideration has focused on the
following documents:
• Def.’s Mot. for Summary Judgment, ECF
No. [12] (“Def.’s Mot.”);
• Pl.’s Mem. Of Points and Authorities in
Support of his Opp’n to Def.’s Mot. for
Summary Judgment and in Support of his
Cross Mot. for Summary Judgment, ECF
No. [13-3] (“Pl.’s Mot.”);
• Reply in Further Support of Def.’s Mot. for
Summary Judgment; and Opp’n to Pl.’s

1

A13
currently stands, the Court DENIES Plaintiff’s
motion for summary judgment and GRANTS Defendant’s motion for summary judgment. The
Court concludes that the letters are exempt from
FOIA based on Exemption 6.
I.

BACKGROUND

In his FOIA request, Plaintiff seeks to acquire letters regarding the potential misconduct
and termination of former AUSA for the Eastern
District of New York (“EDNY”) Raymond
Granger. Plaintiff’s FOIA request stems from a
1995 joint state-federal investigation into Plaintiff’s possible involvement in criminal acts, which
eventually lead to Plaintiff pleading guilty in the
EDNY. Pl.’s Statement of Facts, ECF No. [13-2],
3. Mr. Granger was the lead prosecutor for the in-

Cross-Mot. for Summary Judgment, ECF
No. [15] (“Def.’s Reply”);
• Pl.’s Reply in Support of Cross Mot. for
Summary Judgment, ECF No. [17] (“Pl.’s
Reply”).
In an exercise of its discretion, the Court finds
that holding oral argument in this action would
not be of assistance in rendering a decision. See
LCvR 7(f).

A14
vestigation. Id. at 2. But, Mr. Granger was removed from Plaintiff’s case in 1995 and was soon
thereafter terminated from his position with
EDNY. Id. at 3.
Plaintiff has requested the termination materials related to Mr. Granger based on the belief
that the materials may show that Mr. Granger
engaged in misconduct regarding certain proffers
that Plaintiff made to the federal and Los Angeles
County prosecutors when Mr. Granger was leading the investigation. Compl., ECF No. [1], ¶¶ 1013. If the termination materials show misconduct
on the part of Mr. Granger, Plaintiff intends to
use such information to help his effort to get a
new trial before the California state court, where
he was convicted of murder in 2014. Pl.’s Statement of Facts, ECF No. [13-2], 3-4.
As part of his strategy in the California
case, in 2007, Plaintiff initiated his first FOIA request seeking documents relating to Mr.
Granger’s termination. Pl.’s Mot, ECF No. [13-3],
12. The Department of Justice, which was in possession of a draft termination letter and related
documents, withheld the documents as exempt
under FOIA. In 2012, Plaintiff initiated suit seeking disclosure of the documents. The court ordered the release of approximately 3,600 pages of

A15
exhibits to the requested letter but concluded that
the draft letter itself was exempt under FOIA. Id.
at 12-13; see generally Bloomgarden v. U.S. Dep’t
of Justice, 874 F.3d 757 (D.C. Cir. 2017).
In 2013, Plaintiff initiated a new FOIA request, this time requesting from NARA documents related to Mr. Granger’s termination. Pl.’s
Statement of Facts, ECF No. [13-2], 4. Defendant
indicated that three responsive letters had been
found and that all three letters would be released
to Plaintiff. Pl.’s Ex. DD, ECF No. [13-7], 78-79.
But Defendant later explained that, upon further
review, the letters were exempt from FOIA under
Exemption 6. Id. at 80. The archivist who had initially agreed to release the letters had been
newly hired, and after her supervisor reviewed
the request, the supervisor determined that disclosure of the letters would cause an unwarranted
invasion of Mr. Granger’s personal privacy under
Exemption 6. Dec. of Martha Wagner Murphy,
ECF No. [12-2], Ex. G. Accordingly, Defendant refused to release the three letters. But, on administrative appeal, Defendant agreed to release one
of the letters, finding that only two of the letters
met the requirements of Exemption 6. Id.

A16
Plaintiff continues seeking disclosure of the
two letters pertaining to Mr. Granger’s termination from the U.S. Attorney’s Office. In 2017,
Plaintiff brought action in this Court, asking the
Court to conclude that Exemption 6 is inapplicable because the release of the letters would not
result in a clearly unwarranted invasion of Mr.
Granger’s privacy. Both parties have moved for
summary judgment.
II.

LEGAL STANDING

Congress enacted FOIA to “pierce the veil
of administrative secrecy and to open agency action to the light of public scrutiny.” Dep't of the
Air Force v. Rose, 425 U.S. 352, 361 (1976) (citation omitted). Congress remained sensitive to the
need to achieve balance between these objectives
and the potential that “legitimate governmental
and private interests could be harmed by release
of certain types of information.” FBI v. Abramson,
456 U.S. 615, 621 (1982). To that end, FOIA “requires federal agencies to make Government records available to the public, subject to nine exemptions.” Milner v. Dep't of Navy, 562 U.S. 562,
562 (2011). Ultimately, “disclosure, not secrecy, is
the dominant objective of the Act.” Rose, 425 U.S.
at 361. For this reason, the “exemptions are explicitly made exclusive, and must be narrowly

A17
construed.” Milner, 562 U.S. at 565 (citations
omitted).
When presented with a motion for summary judgment in this context, the district court
must conduct a “de novo” review of the record,
which requires the court to “ascertain whether
the agency has sustained its burden of demonstrating the documents requested are ... exempt
from disclosure under the FOIA.” Multi Ag Media
LLC v. U.S. Dep't of Agriculture, 515 F.3d 1224,
1227 (D.C. Cir. 2008) (citation omitted). The burden is on the agency to justify its response to the
plaintiff's request. 5 U.S.C. § 552(a)(4)(B). “An
agency may sustain its burden by means of affidavits, but only if they contain reasonable specificity of detail rather than merely conclusory
statements, and if they are not called into question by contradictory evidence in the record or by
evidence of agency bad faith.” Multi Ag Media,
515 F.3d at 1227 (citation omitted). “If an agency's affidavit describes the justifications for withholding the information with specific detail,
demonstrates that the information withheld logically falls within the claimed exemption, and is
not contradicted by contrary evidence in the record or by evidence of the agency's bad faith, then
summary judgment is warranted on the basis of
the affidavit alone.” Am. Civil Liberties Union v.

A18
U.S. Dep't of Defense, 628 F.3d 612, 619 (D.C. Cir.
2011) (citations omitted). “Uncontradicted, plausible affidavits showing reasonable specificity
and a logical relation to the exemption are likely
to prevail.” Ancient Coin Collectors Guild v. U.S.
Dep't of State, 641 F.3d 504, 509 (D.C. Cir. 2011).
Summary judgment is proper when the pleadings, the discovery materials on file, and any affidavits or declarations “show[ ] that there is no
genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of
law.” Fed. R. Civ. P. 56(a).
III.

DISCUSSION

Plaintiff does not challenge the adequacy of
Defendant’s search for responsive records to
Plaintiff’s FOIA request. As such, the sole issue
before the Court is whether the two, undisclosed
letters regarding the termination of Mr. Granger
from the U.S. Attorney’s Office fall under FOIA
Exemption 6. The Court has reviewed the two letters in camera. Considering the arguments of the
parties, as well as the Court’s own review of the
letters, the Court concludes that the letters fall
under FOIA Exemption 6 and were rightfully
withheld.

A19
Exemption 6 to FOIA allows government
agencies to withhold “personnel and medical files
and similar files the disclosure of which would
constitute a clearly unwarranted invasion of personal privacy.” 5 U.S.C. § 552(b)(6). Fundamentally, “Exemption 6 is designed to protect personal information in public records.” Multi Ag Media, 515 F.3d at 1228 (citations omitted). Exemption 6 is not limited to “a narrow class of files containing only a discrete kind of personal information[,]” but was “intended to cover detailed
Government records on an individual which can
be identified as applying to that individual.” U.S.
Dep't of State v. Washington Post Co., 456 U.S.
595, 602 (1982) (citations omitted). So, when reviewing the withholding of records under Exemption 6, the Court first must determine whether
the records in question are the sort of personnel,
medical, or other records which are protected by
the exemption.
Assuming the records at issue are of the
type that fall within the ambit of Exemption 6,
“the court must then determine whether their disclosure would constitute a clearly unwarranted
invasion of personal privacy, which requires balancing the privacy interest that would be compromised by disclosure against any public interest in
the requested information.” Wisdom v. U.S. Tr.

A20
Program, 266 F. Supp. 3d 93, 108 (D.D.C. 2017)
(citations omitted). In order for the exemption to
apply, the Court must determine that the “disclosure of the files would compromise a substantial,
as opposed to de minimis, privacy interest, because if no significant privacy interest is implicated FOIA demands disclosure.” Multi Ag Media, 515 F.3d at 1229 (citations and alterations
omitted). On the other side of the equation, the
only relevant public interest in disclosure “is the
extent to which disclosure would serve the core
purpose of the FOIA, which is contributing significantly to public understanding of the operations
or activities of the government.” U.S. Dep't of Def.
v. Fed. Labor Relations Auth., 510 U.S. 487, 495
(1994) (internal citations and alterations omitted).
Plaintiff does not appear to dispute
whether the letters at issue are the type of “personnel” files that satisfy the threshold requirement of Exemption 6. 5 U.S.C. § 552(b)(6) (exempting “personnel and medical files and similar
files”). But even if Plaintiff were to dispute that
issue, this Court has treated termination letters
as the type of “personnel” files included in the ambit of Exemption 6. See Bloomgarden v. U.S. Dep’t
of Justice, 874 F.3d 757, 759-61 (D.C. Cir. 2017)

A21
(treating a draft termination letter as falling under Exemption 6); see also Stern v. FBI, 737 F.2d
84, 89-90 (D.C. Cir. 1984) (explaining that requests for the disciplinary records of federal employees are analyzed under Exemption 6). Accordingly, Plaintiff’s request for disclosure of the two
letters should be analyzed under Exemption 6.
Because the two letters are the sort of documents potentially protected by Exemption 6, the
Court must next determine whether disclosure of
the two letters would constitute a clearly unwarranted invasion of privacy. To decide whether disclosure would constitute a clearly unwarranted
invasion of privacy, the Court must balance Mr.
Granger’s privacy interest against the public’s interest in having the information disclosed. See
Wisdom, 266 F. Supp. 3d at 108.
In balancing Mr. Granger’s privacy interest
against the public’s interest, the Court considers
Bloomgarden v. United States Dep’t of Justice,
874 F.3d 757 (D.C. Cir. 2017). That case involved
Plaintiff’s prior FOIA request, asking the Department of Justice for the release Mr. Granger’s
draft termination letter. The Court found that the
draft letter was exempted from FOIA under Exemption 6. Bloomgarden, 874 F.3d at 760-61. De-

A22
fendant argues that his prior FOIA case is irrelevant because the prior case involved a draft letter
and this case involves the U.S. Attorney’s Office’s
final determination. The Court agrees that Plaintiff’s prior case is not controlling. But, the similarities between Plaintiff’s prior case and this one
make that court’s analysis informative.
Looking first to Mr. Granger’s privacy interest in the letters, it is an “indisputable proposition that disclosure of information identifying a
particular attorney as the subject of a … disciplinary proceeding … would violate substantial privacy interests of the attorney.” Carter v. U.S.
Dep’t of Commerce, 830 F.2d 388, 394 (D.C. Cir.
1987). Mr. Granger’s privacy interest in the details of his termination is not lessened because
the fact of his termination is already in the public
domain. Kimberlin v. U.S. Dep’t of Justice, 139
F.3d 944, 949 (D.C. Cir. 1998) (disclosing a “stafflevel government lawyer['s disciplinary file] ...
would occasion an invasion of [his] privacy,” even
though he had already been publicly identified);
see also Citizens for Responsibility & Ethics in
Washington v. U.S. Dep't of Justice, 746 F.3d
1082, 1092 (D.C. Cir. 2014) (former congressman's “privacy interest in the contents of [his] investigative files is not insubstantial” even though
it was known that he was under investigation).

A23
Mr. Granger still has a privacy interest keeping
the details of his termination private.
Plaintiff argues that, because Mr.
Granger’s termination occurred more than two
decades ago, the passage of time has lessened Mr.
Granger’s privacy interest in the letters. But, the
Court concludes that “[t]he passage of time, without more, does not materially diminish” Mr.
Granger’s privacy interest. Schrecker v. U.S.
Dep’t of Justice, 349 F.3d 657, 666 (D.C. Cir.
2003). And, plaintiff does not articulate additional factors which would lessen Mr. Granger’s
privacy interest. Mr. Granger’s continuing privacy interest is especially apparent given that
Mr. Granger is a currently-licensed, practicing attorney who would be interested in avoiding embarrassment and harm to his reputation and livelihood. Declaration of Martha Wagner Murphy,
ECF No. [12-2], 10; see also Rose, 425 U.S. at 38081 (explaining that ex-cadets who continue in military service have a heightened privacy interest
in their student disciplinary files).
Considering next the public’s interest, the
Court concludes that the public’s interest in the
two letters is relatively low. When the information requested through FOIA relates to the

A24
misconduct of federal employees, the Court considers the rank of the employee and the seriousness of the allegations. Kimberlin, 139 F.3d at
949. Here, the alleged misconduct involves a former staff-level AUSA. Misconduct by a federal
government attorney is always of some concern to
the public. Federal government attorneys have
their salaries paid by the taxpayer and have discretion in exercising the penal powers of the federal government. But, the public’s interest in the
negligent job performance and unremarkable
misconduct of a staff-level attorney is relatively
low. See Stern v. FBI, 737 F.2d 84, 94 (D.C. Cir.
1984) (“There is a decided difference between
knowing participation by a high-level officer in
such deception and the negligent performance of
particular duties by … lower-level employees.”).
While the negligent job performance and
unremarkable misconduct of a lower-level employee is of little public concern, the public does
have an interest in knowing how the agency or
department in question dealt with the misconduct. Kimberlin, 139 F.3d at 948. But, due to the
two decades which have passed since Mr. Granger
was terminated, the information contained in the
requested letters will illuminate little about the
current internal operations of the U.S. Attorney’s
Office. See Cochran v. United States, 770 F.2d

A25
949, 959 n.15 (11th Cir. 1985) (“[T]here is a great
public interest in insuring the dissemination of
current, newsworthy information ... particularly
when the information relates to the operations of
government.”).
Even though the letters are dated, there
can still be public interest in exposing historic
government activity and misconduct. See, e.g.,
Rosenfeld v. U.S. Dep't of Justice, 57 F.3d 803,
811-12 (9th Cir. 1995) (finding a strong public interest in a controversial investigation into student protestors twenty-five years earlier). But,
the letters requested by Plaintiff have little to no
historic import. Having read the letters, the
Court concludes that they do not illuminate systemic failings or widespread misconduct on the
part of the U.S. Attorney’s Office. Contrast with
Bartko v. U.S. Dep’t of Justice, 898 F.3d 51, 66-67
(D.C. Cir. 2018) (finding a strong public interest
where the requested documents evidenced a pattern of discovery abuses by the U.S. Attorney’s Office). Instead, the letters pertain only to a single
AUSA who was terminated over two decades ago
for relatively unremarkable reasons. And, insofar
as Plaintiff argues that the two letters should be
disclosed based on the effect that disclosure may
have on his own criminal case, Plaintiff’s personal

A26
reasons for requesting disclosure are not a consideration under the FOIA analysis. See U.S. Dep't
of Def. v. Fed. Labor Relations Auth., 510 U.S.
487, 496 (1994) (explaining that whether an invasion of privacy is warranted does not turn on the
individual requester’s purpose for making the
FOIA request).
Considering both Mr. Granger’s privacy interest and the public’s interest in disclosure, the
Court concludes that the equities weigh in favor
of Mr. Granger’s privacy interest. Exemption 6
protects personal information in an employee’s
file only if the disclosure of the information would
create a “clearly unwarranted” invasion of privacy. 5 U.S.C. § 552(b)(6). Here, the invasion of
privacy resulting from the disclosure of the two
letters would be clearly unwarranted. Mr.
Granger maintains a strong privacy interest in
the information contained in his termination letters. His interest is especially strong given his
continued work in the legal field. In contrast, the
public’s interest in the disclosure of the letters is
relatively low. The letters relate only to the twodecades old termination of a lower-level government attorney. The letters do not show systemic
failures or a larger pattern of misconduct on the
part of the U.S. Attorney’s Office. Accordingly,
disclosure would not “contribut[e] significantly to

A27
public understanding of the operations or activities of the government” which is “the only relevant public interest in disclosure to be weighed.”
Fed. Labor Relations Auth., 510 U.S. at 495 (internal citations and alterations omitted).
The Court finds that the above analysis applies equally to both of the requested letters.
However, in his motion for summary judgment,
Plaintiff attempts to distinguish the two letters.
Plaintiff argues that, at a minimum, the April 4,
1997 letter should be disclosed as this letter relates to the “requesting of documents and the return of property,” which does not implicate Mr.
Granger’s privacy interest. Pl.’s Mot, ECF No.
[13-3], 17. But, the Court’s review of this letter
shows that the letter also contains sensitive material relating to the circumstances surrounding
Mr. Granger’s termination and to other private
information in Mr. Granger’s personnel file.
Moreover, insofar as Plaintiff argues that the letter primarily concerns the return of property, the
corresponding public interest in this information
would be extremely low. Accordingly, both letters
meet the requirements of FOIA Exemption 6.
The Court must make a separate finding as
to whether any portion of the two letters withheld
in their entirety could have been segregated and

A28
released. Trans-Pac. Policing Agreement v.
United States Customs Serv., 177 F.3d 1022,
10027-28 (D.C. Cir. 1999). “[E]ven if the agency
establishes an exemption, it must nonetheless
disclose all reasonably segregable, nonexempt
portions of the requested record[s].” Roth v. U.S.
Dep’t of Justice, 643 F.3d 1161, 1117 (D.C. Cir.
2007). Having reviewed the two letters as well as
the declaration by NARA employee Martha Wagner Murphy, the Court is satisfied that no reasonably segregable information has been withheld.
Any non-exempt information contained in the two
letters is “inextricably intertwined with exempt
portions.” See Mead Data Cent., Inc. v. Dep’t of the
Air Force, 566 F.2d 242, 260 (D.C. Cir. 1977).
IV.

CONCLUSION

For the reasons stated above, the Court concludes that Plaintiff’s two requested letters were
rightfully withheld under Exemption 6 to FOIA.
As such, the Court DENIES Plaintiff’s motion for
summary judgment and GRANTS Defendant’s
motion for summary judgment. A separate order
accompanies this Memorandum Opinion.
/s/
COLLEEN KOLLAR-KOTELLY
United States District Judge

